SEMIANNUAL REPORT OF THE FDIC BOARD MEMBERS’ TRAVEL
     VOUCHER REVIEWS – MARCH 1999 TO AUGUST 1999




                 Audit Report No. 99-040
                   September 27, 1999




                OFFICE OF AUDITS

         OFFICE OF INSPECTOR GENERAL
Federal Deposit Insurance Corporation
Washington, D.C. 20434                                                                Office of Inspector General



                                                                                    September 27, 1999


   MEMORANDUM TO:                  Board of Directors
                                   Audit Committee




   FROM:                           Gaston L. Gianni, Jr.
                                   Inspector General

   SUBJECT:                        Semiannual Report of FDIC Board Members'
                                   Travel Voucher Reviews -March 1999 to August 1999
                                          (Audit Report no. 99-040)

   INTRODUCTION

   The OIG reviews FDIC board members' travel vouchers weekly and reports results monthly. This
   report summarizes the results of the OIG's travel voucher reviews for the six months ending
   August 31, 1999. The reviews are part of a continuing program initiated at the request of the
   Executive Office. The purpose of the program is to ensure that travel expenses incurred by the board
   members while on official travel are not paid by organizations with contractual agreements with the
   FDIC, trade associations, and persons or organizations that might be affected by FDIC decisions. The
   OIG also reviews travel vouchers for compliance with the FDIC's General Travel Regulations.

   SCOPE AND OBJECTIVE

   This report covers the weekly reviews performed of 16 travel vouchers submitted by and paid to the
   board members during the period March 1, 1999 through August 31, 1999. During this period,
   Chairman Tanoue submitted 10 travel vouchers, and Vice Chairman Hove submitted 6 travel vouchers
   to the FDIC's Division of Finance for payment. The Director of the Office of Thrift Supervision and
   the Comptroller of the Currency submitted no vouchers during this time frame.

   Our objective was to determine if the board members' travel was in compliance with ethics standards
   contained in FDIC Circular 2410.4 Sub-Part B; 5 CFR Part 2635 Subpart B; and the FDIC's General
   Travel Regulations. The circular and CFR criteria prohibit acceptance of gifts, entertainment, favors,
   loans, and travel expenses from: (1) a person or organization seeking official action by the FDIC, (2) a
   person or organization doing business or seeking to do business with the FDIC, (3) a person or
   business conducting activities regulated by the FDIC, or (4) a person or organization with interests that
   may be substantially affected by the performance or nonperformance of the employee's official duties.
CONCLUSION

We concluded that the travel voucher expenses claimed by and paid to Chairman Tanoue and Vice
Chairman Hove for the six month period ending August 31, 1999, were in compliance with the ethics
standards governing the acceptance of gifts, entertainment, favors, loans, and travel expenses as
contained in the above named criteria and the FDIC’s General Travel Regulations.

EXECUTIVE ACTION REQUIRED

No executive action is required.
